Interest Rate and Interest Charges
Annual Percentage Rate
(APR) for Purchases

8.99% to 18.00%, when you open your account,

APR for Balance Transfers

8.99% to 18.00%

APR for Cash Advances

8.99% to 18.00%

Penalty APR and When it Applies

18.00%

based upon card type and credit worthiness.

This APR may be applied to your account if you make a late
payment.

How to Avoid Paying Interest on
Purchases

For Credit Card Tips from the
Consumer Financial Protection
Board

How long will the penalty APR apply? If your APR is increased
because you make a late payment, the Penalty APR will apply until
you make six consecutive minimum payments when due.
Your due date is at least 28 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your
entire balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Board at www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transactions Platinum & Platinum
Rewards MasterCard
•

Foreign Transactions - World
MasterCard

Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

None

None
None
Cross Border Fee - .9% of the transaction
Currency Conversion Fee - .2% of the transaction

None

Up to $35.00
Up to $35.00
$12.00

How we will calculate your balance: We will use a method called “average daily balance (including
new purchases).”

Credit Card Disclosure - Application/Solicitation- Revised 01/19

